CERTIFICATE OF SERVICE
I hereby certify that on July 11, 2019, I filed with the Clerk's office of the United States
Supreme Court, via UPS Next Day Air, the required number of copies of PETITIONER'S

APPLICATION TO EXTEND TIME TO FILE PETITION FOR WRIT OF CERTIORARI, and further
certify that I hereby served, via U.S. First-Class Mail and e-mail, one-copy of the foregoing
document to the following:

Suzanne Loose
City of Chicago, Department of Law
Appeals Division
30 North LaSalle Street, Suite 800
Chicago, Illinois 60602
(312)744-8519
Email: Suzanne.Loose@cityofchicago.org
Counsel for Respondent

Robert P. Frommer*
INSTITUTE FOR JUSTICE

901 North Glebe Road, Suite 900
Arlington, Virginia 22203
(703) 682-9320
Email: rfrommer@ij.org
*Counsel of Record
Counsel for Petitioner

4

